     Department of Homeland Security

     ��������������������������


  Iowa’s Management of Homeland Security Grant 

Program Awards for Fiscal Years 2010 Through 2012 





OIG-14-81                                 April 2014

                      OFFICE OF INSPECTOR GENERAL 

                            Department of Homeland Security 

                             Washington, DC 20528 / www.oig.dhs.gov
 
                                             
                                      APR 24 2014 
 
MEMORANDUM FOR:              Brian E. Kamoie 
                             Assistant Administrator 
                             Grant Programs Directorate 
                             Federal Emergency Management Agency 
 
FROM:                        Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                     Iowa’s Management of Homeland Security Grant Program 
                              Awards for Fiscal Years 2010 Through 2012  
                               
Attached for your information is our final report, Iowa’s Management of Homeland 
Security Grant Program Awards for Fiscal Years 2010 Through 2012. We incorporated 
the formal comments from the Federal Emergency Management Agency and Iowa in the 
final report.  
 
The report contains five recommendations aimed at improving the overall effectiveness 
of Iowa’s management of state homeland security grant program funds. Your office 
concurred with all of the recommendations. Based on information provided in your 
response to the draft report, we consider all of the recommendations open and 
resolved. Once your office has fully implemented the recommendations, please submit a 
formal closeout request to us within 30 days so that we may close the 
recommendations. The request should be accompanied by evidence of completion of 
agreed‐upon corrective actions and of the disposition of any monetary amounts. Please 
email a signed PDF copy of all responses and closeout requests to 
OIGAuditsFollowup@oig.dhs.gov. 
 
Consistent with our responsibility under the Inspector General Act, we will provide 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security. We will post 
the report on our website for public dissemination.  
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100.  
 
Attachment                                  
                                      OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Table of Contents
   

   Executive Summary ............................................................................................................ 1 

   

   Background ........................................................................................................................ 2 

   

   Results of Audit ................................................................................................................... 2 

   

          Sole Source Procurements...................................................................................... 3 

          Recommendations ................................................................................................. 4 

          Management Comments and OIG Analysis ........................................................... 4 

           

          Timely Obligation of Grant Funds ........................................................................... 5 

          Recommendation ................................................................................................... 7 

          Management Comments and OIG Analysis ........................................................... 7 

   

          Subgrantee Monitoring ........................................................................................... 7 

          Recommendation ................................................................................................... 9 

          Management Comments and OIG Analysis ........................................................... 9 

           

          Property Management Controls ............................................................................. 9 

          Recommendation ................................................................................................. 10 

          Management Comments and OIG Analysis ......................................................... 10 

           

   Appendixes               

    

              Appendix A:           Objectives, Scope, and Methodology ........................................... 11 

              Appendix B:           FEMA’s Management Comments to the Draft Report ................. 13 

              Appendix C:           State of Iowa’s Management Comments to the Draft Report ..... 16 

              Appendix D:           Timeliness of Subgrantee Awards................................................. 20 

              Appendix E:           Homeland Security Grant Program .............................................. 23 

              Appendix F:           Major Contributors to This Report …............................................ 24 

              Appendix G:           Report Distribution ....................................................................... 25 





www.oig.dhs.gov                                                                                                                 OIG-14-81
                   OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


   Abbreviations
           CFR     Code of Federal Regulations
           DHS     Department of Homeland Security
           FEMA    Federal Emergency Management Agency
           FY      fiscal year
           HSEMD   Homeland Security and Emergency Management Division
           HSGP    Homeland Security Grant Program
           OIG     Office of Inspector General
           OMB     Office of Management and Budget
           SHSP    State Homeland Security Program




www.oig.dhs.gov                                                          OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Executive Summary

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007,fas amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirements for Iowa.

   The objectives of the audit were to determine whether Iowa distributed, administered,
   and spent State Homeland Security Program grant funds strategically, effectively, and in
   compliance with laws, regulations, and guidance. We also addressed the extent to which
   funds awarded enhanced the ability of Iowa grantees to prevent, prepare for, protect
   against, and respond to natural disasters, acts of terrorism, and other manmade
   disasters. The Federal Emergency Management Agency (FEMA) awarded Iowa
   approximately $14.6 million in State Homeland Security Program grants during fiscal
   years 2010–12. Iowa does not have an urban area designated by FEMA; therefore, it did
   not receive Urban Areas Security Initiative grant funds during this period.

   In most instances, Iowa effectively administered its grant program in accordance with
   program requirements, grant guidance, and applicable regulations. However, Iowa can
   improve its grant management practices by ensuring they award all procurements
   competitively, in accordance with the Code of Federal Regulations. The State can also
   ensure grant funds are obligated within the required time period, improve its
   subgrantee monitoring, and ensure subgrantees maintain complete property records.

   We made five recommendations to FEMA, which, when implemented, should
   strengthen program management, performance, and oversight. FEMA concurred with all
   of the recommendations.




www.oig.dhs.gov                               1                                       OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, and ensuring that adequate and validated plans exist. FEMA also
   defines capabilities required to address threats, provides resources and technical
   assistance to States, and synchronizes preparedness efforts throughout the Nation.
   Appendix E contains more information about the HSGP.

   HSGP guidance requires a state administrative agency to administer and manage grant
   funding awarded under the HSGP. The state administrative agency also allocates funds
   to local, regional, and other government entities. The Governor of Iowa appoints the
   administrator of the Homeland Security and Emergency Management Division (HSEMD);
   HSEMD serves as Iowa’s state administrative agency.

   During fiscal years (FY) 2010–12, FEMA awarded Iowa State Homeland Security Program
   (SHSP) grant funds totaling approximately $14.6 million. Because Iowa does not have an
   urban area designated by FEMA, it did not receive Urban Areas Security Initiative funds
   during this period.

   Results of Audit
   In most instances, Iowa effectively administered its grant program in accordance with
   program requirements, grant guidance, and applicable regulations. It developed a
   StrategyfforfHomelandfSecurityfandfEmergencyfManagement, which included goals and
   objectives and incorporated the five mission areas and eight national priorities from the
   DHS NationalfPreparednessfGuidelines. Iowa prepared timely and accurate state
   preparedness reports for FYs 2010–12. As required by FEMA, it conducted a Threat
   Hazard Identification and Risk Assessment in FY 2012. The State also had adequate
   controls over the approval of expenditures and reimbursement of funds.
   However, Iowa can improve its grant management practices by ensuring they award all
   procurements competitively, in accordance with the Code of Federal Regulations (CFR).
   The State can also obligate grant funds within the required time period, improve its
   subgrantee monitoring, and ensure that subgrantees maintain complete property
   records.

   The subgrantees awarded contracts valued at $256,634 without competition. As a
   result, these costs may be unallowable.

www.oig.dhs.gov                                2                                       OIG-14-81
                                 OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              Sole-Source Procurements 


              We identified four sole-source procurements awarded by subgrantees that did
              not follow Federal procurement regulations. As a result, HSEMD cannot ensure
              that the subgrantees’ costs were justified or whether using other vendors would
              have been less costly. Accordingly, we question the costs of all four
              procurements, which totaled $256,634.

              According to the CFR, all procurement transactions should provide full and open
              competition. The CFR also requires that a cost analysis be conducted when there
              is no adequate price competition and for sole-source procurements.1

              We identified two sole-source procurements made by a subgrantee that it may
              have procured from other vendors. Specifically, the subgrantee selected a
              vendor for flame ionization detectors and accessories at a cost of $116,920.
              According to the subgrantee, it selected this vendor based on user testimony
              and exclusive features of the product. The same subgrantee procured thermal
              imaging cameras and accessories at a cost of $107,114 from one vendor.
              According to the subgrantee, the equipment was interoperable with existing
              equipment, it was “impressed” with the vendor’s capabilities, and it was
              “pleased” with the customer service.

              In another case, a subgrantee created a sole-source procurement based on a
              specific name brand. According to subgrantee documentation, it procured “FAST
              Response” wire cutters and reload kits at a cost of $5,600 because it wanted a
              specific brand that other Federal law enforcement used for training. We
              identified similar wire cutters and reload kits that were included in FEMA’s
              Responder Knowledge Base, a national information resource for emergency
              responders.

              In a fourth instance of a non-competitive procurement, the subgrantee could not
              provide us with a contract to justify payments of $27,000 for training. According
              to subgrantee personnel, HSEMD approved the sole-source procurement
              without requiring the subgrantee to provide a contract.




   1
       44 CFR §13.36(c)(1) and 44 CFR §13.36(f)(1), respectively.

www.oig.dhs.gov                                           3                              OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           Recommendations

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #1:

           Ensure that HSEMD properly monitors and oversees its subgrantees’
           procurements to make certain that they comply with applicable Federal
           procurement regulations.

           Management Comments and OIG Analysis

           FEMA’s and the State’s responses to recommendation #1: FEMA concurred with
           this recommendation and will require the State to update its subgrantee
           oversight policy and procedures to ensure subgrantee compliance with all
           applicable Federal procurement regulations by June 24, 2014. According to the
           State, it modified its payment process to ensure the State’s grant managers
           verify that subgrantees followed proper Federal procurement procedures,
           including issuing contracts for goods and services where appropriate. In
           November 2013, the State trained its subgrantees on the payment claim process
           and the need to follow Federal procurement regulations.

           OIG Analysis: We consider FEMA’s proposed actions responsive to the intent of
           this recommendation, and it will remain open and resolved pending completion
           of the corrective actions identified above.

           Recommendation #2:

           Ensure that HSEMD reviews these non-competitive procurements to make
           certain that the subgrantees properly justified them in accordance with
           applicable Federal procurement regulations. If not, recover the $256,634 in
           unallowable SHSP grant funds expenditures.

           Management Comments and OIG Analysis

           FEMA’s and the State’s responses to recommendation #2: FEMA concurred with
           this recommendation and will require the State to review and determine
           whether the procurements were justified by June 24, 2014. According to the
           State, the four procurements identified as sole-source procurements were those
           that subgrantees purchased from a vendor under a General Services
           Administration contract. The State does not have to follow formal competitive
www.oig.dhs.gov                                4                                         OIG-14-81
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           bidding procedures if subgrantees choose such vendors. Furthermore, for the
           third sole-source procurement, according to the State, local procurement
           procedures allowed the purchasing agent to waive the formal competitive
           requirements. For the fourth sole-source procurement, according to the State,
           there was an agreement between the city and the vendor.

           OIG Analysis: During the audit, the State did not provide documentation to
           support that the vendors the subgrantees selected were from General Services
           Administration contracts, the waiver of formal competitive requirements, or an
           agreement between the city and vendor.

           We consider FEMA’s proposed actions responsive to the intent of this
           recommendation. This recommendation will remain open and resolved pending
           the State providing documentation confirming that they purchased the
           procurements identified as sole-source procurements from a General Services
           Administration contract. The State also should confirm the waiver of formal
           competitive requirements by the purchasing agent, and the training agreement
           between the city and vendor.

           Timely Obligation of Grant Funds

           The HSEMD did not meet the 45-day requirement to obligate SHSP grant
           funds for FYs 2010–12. Without timely obligation, grant funds may
           remain unspent. In addition, untimely obligation of grants can affect the
           execution and successful implementation of subgrantee projects.

           FEMA’s FYs 2010–12 grant guidance, required that the state
           administrative agency obligate 80 percent of the funds awarded under
           SHSP to local units of government within 45 days. The obligation must
           meet the following conditions:

                  1.	 There must be some action to establish a firm commitment on the
                      part of the awarding entity.
                  2.	 The action must be unconditional on the part of the awarding
                      entity (i.e., no contingencies for availability of the funds).
                  3.	 There must be documentary evidence of the commitment.
                  4.	 The SAA must communicate the award terms to the official
                      grantee.




www.oig.dhs.gov                                  5     	                                OIG-14-81
                            OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 1. Iowa Grant Obligations, FYs 2010 Through 2012                 


             Grant Award                                    Range of Days to   Average Days Past
                Year              FEMA Award Date              Obligate             45-Day
                                                                                 Requirement
                  2010                9/17/2010                129 to 948          338 days
                  2011                9/21/2011                 78 to 580           79 days
                  2012                8/06/2012                 75 to 345           76 days
           Source: DHS OIG review of subgrant agreements.

           We calculated the days past the 45-day requirement from the date of the
           FEMA award to the date HSEMD signed the subgrant agreements, which
           is when the funds were fully obligated and available to the subgrantee.
           Appendix D provides additional information on the award agreements by
           subgrantee.

           HSEMD did not meet the 45-day obligation requirement because of
           conditions in its subgrant awards. Iowa’s Sub-Grant Award Notification
           and Obligation Letter and its Sub-Grant Agreement prohibit the
           expenditure and reimbursement of funds until the subgrantee executes a
           Sub-Grant Agreement. According to HSEMD officials, they believed that
           the State complied with the 45-day requirement because they issued
           award notification letters to the subgrantees within 45 days of the FEMA
           award date. They also said that they set aside the funds for the approved
           projects. However, funds were not obligated and made available to
           subgrantees until they executed a Sub-Grant Agreement with HSEMD.
           During our site visits, three subgrantees confirmed that, based on Sub-
           Grant Award Notification and Obligation Letter requirements, they
           believed they could not expend their awarded funds until they executed
           the Sub-Grant Agreement.

           HSEMD also did not provide adequate oversight and controls of Sub-Grant
           Agreements. HSEMD personnel did not ensure that subgrantees executed Sub-
           Grant Agreements, and they cancelled some Sub-Grant Agreements for mutual
           convenience. For example, in FY 2010, HSEMD allocated funds totaling $185,908
           to one subgrantee, but it did not execute a Sub-Grant Agreement because the
           subgrantee could not adequately manage the project. In FY 2012, HSEMD
           allocated $30,000 to another subgrantee, but did not execute the agreement
           because the subgrantee rejected the grant. In both instances, HSEMD re-
           obligated the funds to different subgrantees. In FY 2010, the funds were


www.oig.dhs.gov                                     6                                      OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           obligated to six new subgrantees between 920 and 948 days after the FEMA
           award date. In FY 2012, it took 339 days to obligate the funds to the new
           subgrantee.

           In another instance, HSEMD did not adequately plan the distribution of grant
           funds. The state administrative agency retained $80,000 in FY 2012 funds for a
           specific project. Although FEMA guidance allows state administrative agencies to
           retain up to 20 percent of grant funds for their own use, HSEMD decided to
           allocate the funds to a subgrantee 345 days after the FEMA award date.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #3:

           Require HSEMD to review and update its obligation and approval process to
           identify ways to shorten the time needed to meet grant obligation requirements.

           Management Comments and OIG Analysis

           FEMA’s and the State’s responses to recommendation #3: FEMA concurred with
           this recommendation and will require HSEMD to update its policy and
           procedures to ensure that grant funds are obligated within the required 45 days
           by June 24, 2014. State officials said that they modified the subgrant obligation
           and approval process for the grant fiscal year 2013 and onward to meet the
           obligation requirements.

           OIG Analysis: We consider FEMA’s proposed actions responsive to the intent of
           this recommendation. This recommendation will remain open and resolved
           pending completion of the corrective actions identified above.

           Subgrantee Monitoring

           HSEMD did not sufficiently monitor its SHSP subgrantees’ financial and
           programmatic activities during FYs 2010–12. As a result, it cannot fully
           determine whether its subgrantees complied with Federal and State grant
           requirements.

           The CFR, the Office of Management and Budget (OMB), FEMA, and HSEMD have
           guidance on grantee monitoring requirements. According to 44 CFR § 13.40,
www.oig.dhs.gov                                7                                       OIG-14-81
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           MonitoringfandfReportingfProgramfPerformance, grantees must oversee
           subgrantee activities to ensure they comply with applicable Federal
           requirements. OMB Circular A-133 Compliance Supplement March 2008, Part 3-
           M, SubrecipientfMonitoring, also requires grantees to monitor subgrantees’ use
           of Federal awards through reporting, site visits, regular contact, or other means.
           In addition to the above guidance, FEMA’s HomelandfSecurityfGrantfProgramf
           GuidancefandfApplicationfKit requires grant recipients to monitor award
           activities, including subawards, to be reasonably assured of compliance with
           Federal requirements. The State’s HSEMDfPreparednessfGrantfMonitoringf
           ProgramfProcedures require the HSEMD to visit each grantee every grant cycle to
           determine compliance with FEMA and State requirements.

           Although HSEMD monitors its subgrantees’ through office-based and onsite
           reviews to ensure compliance with financial and programmatic requirements, as
           of April 2013, it only performed onsite reviews for 33 percent of its subgrantees
           in FY 2010 and 31 percent in FY 2011. The State performed desk reviews for 92
           percent of its subgrantees in FY 2010 and 69 percent in FY 2011. Because the
           State recently distributed its FY 2012 grant awards, sufficient monitoring data
           was not available for FY 2012 grant fund awards.

           HSEMD does not have a methodology for selecting subgrantees for its onsite
           reviews. Although monitoring personnel designate audit risk levels by
           subgrantee, they do not use those risk levels when selecting subgrantees to visit.
           According to monitoring personnel, they primarily use proximity to HSEMD when
           determining which subgrantees to visit.

           HSEMD has policies and checklists to document onsite reviews, but it could not
           provide sufficient or complete documentation to support them. The monitoring
           team provided handwritten notes and incomplete checklists for the information
           they reviewed and recommendations made to the subgrantees. As a result, we
           could not determine the effectiveness of the onsite reviews.

           HSEMD also did not monitor subgrantee compliance with OMB Circular A-133,
           which requires non-Federal entities that receive and expend more than $500,000
           in grant funds to obtain a single or program-specific audit. During their onsite
           and office-based reviews, HSEMD monitoring personnel did not ensure that
           subgrantees were meeting the requirement to obtain this type of audit. In July
           2012, HSEMD issued a policy for single audits that delegated this responsibility to
           subgrantees.



www.oig.dhs.gov                                 8                                       OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           By developing and implementing a monitoring plan to document the guidelines,
           sample selection, methodology, and follow-up procedures, FEMA and the State
           would have reasonable assurance that the State’s subgrantees are complying
           with applicable Federal and State requirements.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #4:

           Require HSEMD to develop and implement a monitoring plan to ensure that
           subgrantees comply with all Federal and State monitoring guidelines. The
           monitoring plan should include sample selection methodology and guidance for
           documenting onsite reviews, and follow-up procedures for recommended
           corrective actions.

           Management Comments and OIG Analysis

           FEMA’s and the State’s responses to recommendation #4: FEMA concurred with
           this recommendation and will require the State to develop a monitoring plan
           that ensures the subgrantees comply with all Federal and State monitoring
           guidelines by June 24, 2014. Specifically, the monitoring plan should include
           sample selection methodology, guidance for documenting monitoring reviews,
           and compliance with OMB Circular A-133 requirements. State officials said that
           they updated their monitoring plan to ensure there is a systematic assessment of
           the subgrantees ability to meet grant award provisions, program guidelines, and
           Federal and state regulations. The State indicated that it would also use the
           monitoring plan to ensure that adequate policies, processes, and systems are in
           place to manage subawards effectively. Furthermore, the monitoring plan will
           include a risk matrix to categorize and select subgrantees for monitoring.

           OIG Analysis: We consider FEMA’s proposed actions responsive to the intent of
           this recommendation. This recommendation will remain open and resolved
           pending completion of the corrective actions identified above.

           Property Management Controls

           One of the seven subgrantees did not maintain property records in accordance
           with the CFR’s property management requirements. With better monitoring of
           this subgrantee, HSEMD could have ensured that proper records were
www.oig.dhs.gov                               9                                      OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


           maintained and inventories conducted. However, after we provided the
           subgrantee with inventory requirements, it provided property record
           information to satisfy the requirements.

           According to 44 CFR §13.32(d) Managementfrequirements, subgrantees must
           maintain property records for grant-funded equipment and conduct an inventory
           at least every 2 years. The subgrantee purchased about $154,874 worth of
           equipment for eight hazmat teams. Officials said that they were unaware of the
           requirement to maintain property records and believed the hazmat teams were
           responsible for conducting an inventory of the equipment and maintaining
           property records.

           Recommendation

           We recommend that the Assistant Administrator, Grant Programs Directorate:

           Recommendation #5:

           Require HSMED to ensure that subgrantees maintain property and inventory
           records in accordance with Federal requirements.

           Management Comments and OIG Analysis

           FEMA’s and the State’s responses to recommendation #5: FEMA concurred with
           this recommendation and will require the State to update its policy and
           procedures to incorporate property management procedures and records as
           applicable by Federal regulations and as part of its subgrantee oversight and
           monitoring process by June 24, 2014. State officials said that reimbursement
           procedures were changed to require subgrantees to provide inventory
           information when submitting reimbursement claims for more than $5,000. The
           State also will require subgrantees to keep inventory systems on site to meet
           inventory requirements along with updating its on-site monitoring procedure to
           verify the inventory system.

           OIG Analysis: We consider FEMA’s proposed actions responsive to the intent of
           this recommendation. This recommendation will remain open and resolved
           pending completion of the corrective actions identified above.




www.oig.dhs.gov                              10                                     OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, requires the DHS OIG to audit individual States’ management of SHSP and Urban
   Areas Security Initiative grants. This report responds to the reporting requirement for
   Iowa.

   The audit objectives were to determine whether Iowa distributed, administered, and
   spent SHSP grant funds strategically, effectively, and in compliance with laws,
   regulations, and guidance. We also addressed the extent to which funds enhanced the
   State’s ability to prevent, prepare for, protect against, and respond to natural disasters,
   acts of terrorism, and other manmade disasters. The scope of this audit included
   $14,551,721 in SHSP grants awarded for FYs 2010–12 as shown in table 2. Iowa does not
   have an urban area designated by FEMA; therefore, the State did not receive any Urban
   Areas Security Initiative grant funds during this period.

   Table 2. Iowa Homeland Security Grant Program Awards FYs 2010–12
             Grant Program                FY 2010         FY 2011    FY 2012  Total
    State Homeland Security
                                          $6,613,200 $5,137,205 $2,801,316 $14,551,721
    Program
    Urban Areas Security Initiative                               $0
   Source: DHS OIG compiled from FEMA and HSEMD source documents.

   The Homeland Security Grant Program encompasses several interrelated Federal grant
   programs as described in appendix E. However, we only reviewed the SHSP funding of
   equipment and programs for compliance during this audit.

   Our audit methodology included work at Iowa’s HSEMD. To achieve our audit objectives,
   we analyzed data, reviewed documentation, verified equipment (onsite and remotely),
   and interviewed key State and local officials directly involved in the management and
   administration of the SHSP grants. We reviewed the plans developed by the State to
   improve preparedness and respond to hazards.

www.oig.dhs.gov                                11                                       OIG-14-81
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



   We judgmentally selected and reviewed the subgrant files of seven SHSP subgrantees
   and expenditures made by HSEMD in FYs 2010–12. These seven subgrantees and
   HSEMD accounted for $1,734,684 in reimbursements, totaling 37 percent of all local
   SHSP reimbursements for FYs 2010 and 2011. There were no subgrantee
   reimbursements for FY 2012 at the time of our sample selection.

   The seven subgrantees included three cities, two counties, one first responder, and one
   public-private partnership. The subgrantees selected were:

   City Entities
           • City of Des Moines
           • City of Oelwein2
           • City of Waterloo

   County Entities
         • Cerro Gordo County
         • Scott County

   First Responder and Public Private Partnership
           • Cedar Rapids Fire Department
           • Safeguard Iowa Partnership

   We relied on computer-processed data provided by FEMA and HSEMD for information
   regarding grant funds awarded and draw downs for FYs 2010–12. We conducted limited
   tests on this data and compared it with source documentation to ensure that the data
   were sufficiently reliable in meeting our audit objectives.

   We conducted this performance audit between January 2013 and September 2013
   pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




   2
       We only reviewed the City of Oelwein’s equipment inventory.

www.oig.dhs.gov                                        12                             OIG-14-81
                                OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   FEMA’s Management Comments to the Draft Report

                                                                                         U.S. Ocpurtmtnt ofllomeland S~:t urity
                                                                                         Washington. DC 20H2




                                                JAN 16 ZllM
              MEMORANDUM FOR:                   Anne L. Richards
                                                Assistant Inspector General for Audits
                                                Ollice of Inspector General (OIG)
                                                Department o f Homeland Security

              f ROM:              ,.C. ..-:r'   David J. Kaufman     ~---:::::,__
                                                                            ""'!>   Cr~ · -
                                                A~tlc iateAdministrator for
                                                PoYicy, Program Analysis and International Affairs

              SUBJECT:                          Federal Emergency Management Agency (FEMA) Response to
                                                Draft Report: "The State of Iowa's Management of Homeland
                                                Security Grant Program Awards for Fiscal Years 2010 Through
                                                20 12" OIG Project No. 13-122-AUD-FEMA


              Thank you for the opportunity to comment on OIG Draft Report, "The State oflowa' s
              Management of Homeland Security Grant Program Awards for Fiscal Years 20 I 0 through 20 12"
              OIG Project No. 13- 122-AUD-FEMA. The findings in the report will be used to strengt hen the
              effectiveness and efficiency of how we execute and measure our program. We recognize the
              need to continue to improve the process, including addressing the recommendations raised in this
              report. The fo llowing are our response to th~. fi ve (5) recommendations fo r implementation, of
              which, FEMA concurs with all fi ve (S) recommendations.

              Recommendation #1: We recommend that the Assistant Administrator, Grant Programs
              Directorate, ensure that Io wa Department o f Homeland Security and Emergency Management
              (I ISEMD) properly monitors and oversees its subgrantees ' procurements to make certain that
              they comply with applicable federal procurement regulations.
              Response: Concur. FEMA agrees that oversight is a vital function of the State Administrative
              Agency (SAA). FEMA wi ll require the Iowa SAA to update subgrantee oversight policy and
              procedures to ensure subgrantee compliance with all applicable federal procurement regulations.

              FEMJ\ requests that this findin g be changed to resolved and open.

              Estimated Completion Date (ECD): June 24 , 20 14

              Recommendation #2: We recommend that the Assistant Administrator, Grant Programs
              Directorate, ensure that 1-!SEMD reviews these noncompetitive procurements to make certain
              that the subgrantees properly justified them in accordance with applicable fedt:ral procurement

                                                                                         www.femn. gov




www.oig.dhs.gov                                                 13                                                                OIG-14-81
                                OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




              that the subgrantees properly justified them in accordance with applicable federal procurement
              regulations. If not, recover the $256,634 in unallowable State Homeland Security Program
              (SHSP) grant funds expenditures.

              Response: Concur. FEMA will require the SAA to review and determine if the procurements in
              question were justified.

              FEMA requests that this finding be changed to resolved and open.

              Estimated Completion Date (ECD): March 25,2014

              Recommendation #3: We recommend that the Assistant Administrator, Grant Programs
              Directorate, require HSEl'viD to review and update its obligation and approval process to identify
              ways to shorten the time needed to meet grant obligation requirements.

              Response: Concur. FEMA will require the SAA to update HSEMD policy and procedures to
              ensure that grant funds are obligated within th.e required 45 days.

              FEMA requests that this finding be changed to resolved and open.

              Estimated Completion Date (ECD): J\Ule 24,2014

              Recommendation #4: We recommend that th.e Assistant Administrator, Grant Programs
              Directorate, require HSEMD to develop and implement a monitoring plan to ensure that
              subgrantees' comply with all federal and state monitoring guidelines. The monitoring plan
              should include sample selection methodology and guidance for documenting onsite reviews, and
              follow-up procedures for recommended corrective actions.

              Response: Con~ur. FEMA will require th.e SAA to update th.eir subgrantee oversight policy and
              procedures before the estimated completion date. The update should include a methodology for
              subgrantee monitoring selection, a review process to ensure monitoring checklist is completed,
              and that th.e monitoring checklist includes a review of compliance with the OMB Circular A-133
              requirement.

              FEMA requests that this finding be changed to resolved and open.

              Estimated Completion Date (ECD): June 24,2014

              Recommendation 115: We recommend that the Assistant Administrator, Grant Programs
              Directorate, ensure that subgrantees maintain property and inventory records in accordance with
              federal requirements.

                     Technical Correction; FEMA requests that OlG make the following technical correction
                     to Recommendation #5 to read: We recommend that the Assistant Administrator, Grant
                     Programs Directorate, require HSEMD to ensure th.at subgrantees maintain property and
                     inventory records in accordance with federal requirements.


                                                              2   .




www.oig.dhs.gov                                             14                                                     OIG-14-81
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




              Response: Concur. FEMA will require the SAA to update their subgrantee oversight policy and
              procedures. The update should require the SAA to incorporate property management procedures
              and records required by applicable Federal regulations as part of the subgrantee oversight and
              monitoring process.

              FEMA requests that this finding be changed to resolved and open.

              Estimated Completion Date (ECD): June 24,2014

              Again, we thank you for the work that you and your team did to inform us of measures we can
              take to enhance the program's overall effectiveness. We look forward to DIG's final report for
              "The State oflowa's Management of Homeland Security Grant Program Awards for Fiscal
              Years 2010 through 2012". Please direct any questions regarding this response to Gary McKeon,
              FEMA's Chief Audit Liaison. at 202-646-1308.




                                                            3




www.oig.dhs.gov                                            15                                                  OIG-14-81
                                   OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix C
   State of Iowa’s Management Comments to the Draft Report




              Fields of Opponunities
                                                                                    STATE OF IOWA
            TERRY E. DRANSTAD                                                         IOWA HOMELAND SECURITY AI\"D
                   GOVERNOR
                                                                                EMI:RGJ:NCY MANAGEMENT DEPARTME~
              KIM REYNOLDS                                                   MARK ). SCHOLJrEN, HO:vli:LANIJ SECURITY ADVISOR
                  LT. GOVER.'lOR                                                AND EMERGENCY MANAGEMENT DIRECTOR




            John McCoy
            Deputy Assistant Inspector General for audit
            U.S. Department of Homeland St:~:uri t y

            February 6, 20 14

            Dear Mr. McCoy.

            Attached please ftnd Iowa HSEMD 's response to OIG's draft audit report '·Iowa' s Management
            of State Homeland Security Program Grants Awarded During Fiscal Years 2010 through 20 II ''.




            Angela Chen, Administrator
            Planning and Financial Services Di vision




                  7 105 NW 70'h AVENU[ I CAMP DODGE I BLDG. W-4 I JOHNSTON. IOWA 50131-1824/515-725-3231
                                           'lftp://wvvw.homelandsecurity.iowo gov




www.oig.dhs.gov                                                16                                                          OIG-14-81
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




              OIG Recommendations

              We recommend that the Assistant Administrator, Grant Programs Directorate:

              Recommendation #1 :

              Ensure that HSEMD properly monitors and oversees its subgrantees' procurements to
              make certain that they comply with applicable Federal procurement regulations.

              Recommendation #2:

              Ensure that HSEMD reviews these noncompetitive procurements to make certain that
              the subgrantees properly justified them in accordance with applicable Federal
              procurement reg ulations. If not, recover the $256,634 in unallowable SHSP grant funds
              expenditures.

              Management Comments and OIG Analysis


              Iowa HSEMD response to Recommendations #1 and #2:

                    HSEMD modified its payment process to ensure federal procurement regulations
                    are followed by requiring cost analysis for all procurements over $5000. Grant
                    manager reviews such claims and will approve them only after verifying that
                    proper procurement procedures are followed and contracts are provided.
                    Additionally, in November of 2013, HSEMD conducted training to sub-grantees
                    on payment claim process and re-emphasized the need to follow federal
                    procurement regulations.

                    With regard to the four specific procurements listed on page 3 of the draft report:

                    1. Flame ionization detectors and accessories at a cost of $116,920: Sub-
                       grantee purchased these from a vendor under GSA contract (GS-07F-0067T).
                       Per Code of Iowa BA.312 and 8A.311A, no further competitive bidding
                       process is required .

                    2. Thermal imaging cameras and accessories at a cost of $107,114: Sub-
                       grantee purchased these from a vendor under GSA contract (GS-07F-
                       0180M). Per Code of Iowa 8A.312 and 8A.31 1A , no further competitive
                       bidding process is required .

                    3. FAST Response wire cutters and reload kits at a cost of $5.600: The
                       products purchased met sub-grantee's special needs. Sub-grantee followed
                       its (City of Des Moines) procurement procedures (City Ord. No. 14,346.
                       Subdivision V, Sec. 2-710) which provide purchasing agent with authority to




www.oig.dhs.gov                                            17                                             OIG-14-81
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




                        waive the formal competitive bidding procedure for goods under $25,000
                        upon recommendation of the requesting department. Also. the products were
                        on a previous GSA contract (GS-07F-9146S).

                     4. Training for $27,000. Sub-grantee purchased this training from a vendor
                        under GSA contract (GS-07F-0357V). Per Code of Iowa 8A.312 and
                        8A.311A, no further competitive bidding process is required. The vendor and
                        the city did enter into an agreement for this training. HSEMD has reminded all
                        sub-grantees to submit such agreements/contracts for all payment
                        reimbursement requests.



              Recommendation #3:

              Require HSEMD to review and update its obligation and approval process to identify
              ways to shorten the time needed to meet grant obligation requirements.

              Management Comments and OIG Analysis

              Iowa HSEMO response to Recommendation #3:

              HSEMD modified its subgrant obligation and approval process in September of 2013 so
              that from HSGP 2013 and onward , the obligation time requirement will be met.



              Recommendation #4:

              Require HSEMD to develop and implement a monitoring plan to ensure that
              subgrantees comply with all Federal and State monitoring guidelines. The monitoring
              plan should include sample selection methodology and guidance for documenting onsite
              reviews, and follow-up procedures for recommended corrective actions.

              Management Comments and OIG Analysis

             Iowa HSEMD response to Recommendation #4:

             HSEMD's monitoring plan has been re-designed and updated to ensure that there is a
             systematic assessment of the sub-grantee's ability to meet grant award provisions,
             program guidelines and federal/state regulations. HSEMD's monitoring plan is designed
             to help grant program and monitoring staff verify submitted claims to ensure they are
             allowable, reasonable, benefit the grant, and have been appropriately charged to the
             correct cost category. In addition, HSEMD's monitoring plan is used to ensure that
             adequate policies, processes, and systems are in place to manage sub-awards
             effectively. The updated monitoring plan now includes a risk assessment matnx which




www.oig.dhs.gov                                           18                                             OIG-14-81
                               OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




              has been developed to refine how sub-grantees are categorized and selected for
              monitoring. The matrix includes six evaluation standards and criteria for determining
              levels of risk for each standard.




              Recommendation #5 :

              Ensure that subgrantees maintain property and inventory records in accordance with
              Federal requirements.

              Management Comments and DIG Analysis
              Iowa HSEMD response to Recommendation #5 :

              HSEMD revised its sub-grant purchase reimbursement procedure. Sub-grantees are
              required to provide inventory information when filing reimbursement c1a1ms for
              equipment more than $5000 purchased with HSGP grants, in add ition to keep their
              inventory system on their sites. This document must have a county or city tag number,
              equipment's serial number, cost of the purchase, date of purchase, physical location of
              the equipment, and a description of the equipment.

              HSEMD also modified its site visit procedures to ensure inventory system will be verified
              ensile during monitoring visits.




www.oig.dhs.gov                                           19                                              OIG-14-81
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Appendix D
   Timeliness of Subgrantee Awards

   FY 2010 Subgrantees
                                                             FEMA Award   Obligation   Days to
                  Subgrantee                 Award Amount       Date        Date       Obligate

    Buena Vista County                           $4,000.00    09/17/10    04/08/13       934
                                               $167,510.00    09/17/10    03/04/13       899
    The Cedar Rapids Fire Department
                                                $18,223.00    09/17/10    03/28/13       923
                                               $200,000.00    09/17/10    01/24/11       129
    Cerro Gordo County                         $396,929.00    09/17/10    01/26/11       131
                                                $62,000.00    09/17/10    10/02/12       746
                                               $312,378.00    09/17/10    02/10/11       146
                                               $385,592.00    09/17/10    02/28/11       164
                                               $184,212.00    09/17/10    02/28/11       164
    City of Des Moines
                                               $257,433.00    09/17/10    02/28/11       164
                                               $101,043.00    09/17/10    02/28/11       164
                                                $54,740.00    09/17/10    04/22/13       948
                                                $64,000.00    09/17/10    02/01/11       137
    City of Oelwein
                                               $344,000.00    09/17/10    02/01/11       137

    City of Waterloo                            $86,114.00    09/17/10    02/10/11       146
                                               $237,250.00    09/17/10    02/10/11       146

    Des Moines County                           $10,800.00    09/17/10    04/11/13       937
    The Jefferson County Sherriff’s Office     $655,050.00    09/17/10    03/01/12       531
    Iowa Department of Administrative
    Services                                   $128,100.00    09/17/10    03/25/13       920
    Polk County Emergency
    Management Commission                      $116,432.00    09/17/10    01/26/11       131
                                               $244,035.00    09/17/10    03/22/11       186
    Scott County Board of Supervisors
                                                $76,940.00    09/17/10    03/22/11       186
    City of Sioux City                         $268,467.00    09/17/10    07/07/11       293
    Story County
                                                $15,145.00    09/17/10    04/11/13       937
                                               $228,190.00    09/17/10    01/24/11       129
    Story County Auditor
                                               $395,480.00    09/17/10    01/24/11       129
    Woodbury County Board of                    $54,500.00    09/17/10    01/26/11       131
    Supervisors                                $305,400.00    09/17/10    01/26/11       131




www.oig.dhs.gov                                      20                                 OIG-14-81
                               OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   FY 2011 Subgrantees 

                                               Award       FEMA Award   Obligation   Days to
                 Subgrantee                   Amount           Date       Date       Obligate
    Cedar Rapids Fire Department             $200,000.00     09/21/11   12/08/11       78
    Cerro Gordo County Emergency
    Management Agency                        $250,000.00    09/21/11    12/08/11       78
                                             $391,058.00    09/21/11    01/13/12       114
                                              $70,000.00    09/21/11    12/19/11        89
    The City of Des Moines
                                             $182,000.00    09/21/11    12/19/11       89
                                              $93,705.96    09/21/11    03/23/12       184
                                             $193,692.98    09/21/11    03/23/12       184
                                              $57,664.96    09/21/11    12/29/11       99
    The Oelwein Police Department
                                             $260,591.63    09/21/11    12/29/11       99
                                              $68,477.14    09/21/11    12/29/11       99
    The Waterloo Police Department
                                             $201,790.38    09/21/11    12/29/11       99
    Jefferson County Sherriff’s Office and
    Iowa Department of Public Safety         $460,016.00    09/21/11    04/23/13       580
    Polk County Emergency Management
    Commission                               $100,000.00    09/21/11    12/08/11       78
    Safeguard Iowa Partnership               $150,000.00    09/21/11    03/01/12       162
                                              $72,081.20    09/21/11    12/16/11       86
    The Scott County Sherriff’s Office
                                             $192,026.32    09/21/11    12/16/11       86
    Sioux City Fire Rescue                   $200,000.00    09/21/11    12/08/11       78
                                             $250,000.00    09/21/11    12/16/11       86
    Story County
                                             $377,000.00    09/21/11    12/16/11       86
    Woodbury County                           $68,477.14    09/21/11    12/29/11        99
                                             $184,819.69    09/21/11    12/29/11       99
    Woodbury County Emergency
    Management Agency                         $80,000.00    09/21/11    12/16/11       86




www.oig.dhs.gov                                   21                                  OIG-14-81
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   FY 2012 Subgrantees 

                                              Award       FEMA Award     Obligation   Days to
                 Subgrantee                  Amount           Date         Date       Obligate
    Buena Vista County                        $1,650.00     08/06/12     10/20/12        75
                                             $26,200.00     08/06/12     10/20/12        75
    Cerro Gordo/Franklin County
                                             $36,376.00     08/06/12     10/20/12        75
                                            $113,925.00     08/06/12     11/20/12       106
    City of Cedar Rapids
                                             $53,124.00     08/06/12     11/16/12       102
                                            $245,000.00     08/06/12     11/05/12        91
    City of Des Moines                      $147,882.00     08/06/12     11/14/12       100
    City of Oelwein                         $156,723.00     08/06/12     10/20/12       75
    City of Sioux City                       $87,165.00     08/06/12     11/21/12       107
    City of Waterloo                         $48,353.00     08/06/12     10/20/12        75
    Clarke County                             $3,500.00     08/06/12     11/09/12       95
    Des Moines County                         $3,750.00     08/06/12     11/09/12       95
    Iowa Central Homeland Security
    Training Center                         $150,000.00     08/06/12     01/16/13       163
    City of Des Moines, Iowa, and Iowa
    Department of Administrative Services   $146,500.00     08/06/12     12/27/12       143
    Iowa Disaster Human Resource Council     $30,000.00     08/06/12     07/11/13       339
    Johnson County                          $80,000.00     08/06/12      07/17/13       345
    Mahaska County                           $3,750.00     08/06/12      11/09/12       95
    Plymouth County                          $3,000.00     08/06/12      10/20/12       75
                                           $160,000.00     08/06/12      05/05/13       272
    Polk County
                                            $41,764.00     08/06/12      10/20/12        75
    Pottawattamie County                    $51,634.00     08/06/12      10/20/12        75
    Sac County                               $3,000.00     08/06/12      10/20/12       75
    Safeguard Iowa Partnership             $150,000.00     08/06/12      03/28/13       234
    Scott County                           $112,195.00     08/06/12      11/05/12       91
    Sioux County                            $10,000.00     08/06/12      10/20/12        75
                                            $52,487.00     08/06/12      11/12/12        98
    Story County                            $72,000.00     08/06/12      11/12/12        98
                                           $107,575.00     08/06/12      11/14/12       100
    Woodbury County                        $143,500.00     08/06/12      10/20/12        75
   Source: DHS OIG compiled from HSEMD subgrant award documentation. 





www.oig.dhs.gov                                  22                                    OIG-14-81
                          OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix E
   Homeland Security Grant Program

   HSGP provides Federal funding to help State and local agencies enhance capabilities to
   prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. HSGP encompasses several interrelated Federal grant programs that
   together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and U.S. Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the state homeland security strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable costs
      for the urban areas are consistent with SHSP. FEMA expends funding based on the
      Urban Area Homeland Security Strategies.

   HSGP also includes other interrelated grant programs with similar purposes. Depending
   on the fiscal year, these programs may include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (beginning in FY 2010)




www.oig.dhs.gov                               23      	                               OIG-14-81
                        OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix F
   Major Contributors to This Report
   Brooke Bebow, Director
   LaParacina Williams, Audit Manager
   Virginia Feliciano, Auditor
   Kevin King, Auditor
   LaTrina McCowin, Auditor
   David Porter, Auditor
   Katrina Bynes, Independent Referencer
   Kelly Herberger, Communications Analyst
   Kevin Dolloson, Communications Analyst




www.oig.dhs.gov                              24                OIG-14-81
                           OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Assistant Administrator, Grants Programs Directorate
   Federal Emergency Management Agency Audit Liaison
   Grant Programs Directorate Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  25                        OIG-14-81
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
